                                                    Office of Inspector General
                                      EXPORT-IMPORT BANK of the UNITED STATES




                                             SEMIANNUAL

                                         REPORT TO CONGRESS


                                                                         SPECTO
                                                                    IN            R
                                                                F                     G
                                                            O                             E
                                                        E




                                                                                          N
                                                    C




                                                                                              E
                                                    FI




                                                                                              RA
                                                   OF




                                                                                                  L




 April 1, 2008 – September 30, 2008
811 Vermont Avenue, NW, Suite 978
             Washington, DC 20571

           Telephone 202.565.3923
            Facsimile 202.565.3988
Michael W. Tankersley                EXPORT-IMPORT BANK 

Inspector General                     of the UNITED STATES 



October 31, 2008

I am pleased to present the third Semiannual Report to Congress of the Oﬃce of Inspector General
(OIG) of the Export-Import Bank of the United States (Ex-Im Bank) covering the reporting period
of April 1, 2008 to September 30, 2008.

This reporting period was marked by the arrival of the OIG’s initial senior staﬀ, experienced members
of the IG community serving as Counsel to the Inspector General, Assistant Inspector General for
Audit and Assistant Inspector General for Investigations. Their resumes can be viewed on the OIG
webpage at http://www.exim.gov/oig/senior_staﬀ.cfm. We are working together to develop goals and
a strategic plan for the OIG, identify additional staﬀ and resource requirements and implement
policies that will produce an OIG well suited to the particular risks impacting Ex-Im Bank.

The OIG has continued to expand its activity in the areas of auditing, evaluations and investigations
during the reporting period with the objectives of improving the economy, eﬃciency and eﬀective­
ness of Ex-Im Bank export credit programs and operations and promoting integrity among all
participants in Ex-Im Bank’s programs and operations. These objectives were advanced during the
reporting period by:

   Conducting evaluations and investigations of open and new credit fraud cases aﬀecting Ex-Im Bank,
   responding to hotline referrals and providing support for pending fraud prosecutions.

   Selecting a contractor and initiating work on a performance audit of Ex-Im Bank’s medium-term
   credit programs to evaluate the eﬀectiveness of, and identify opportunities for improvement in,
   the areas of credit and fraud risk management, transaction processing and IT systems, support
   and governance.

   Commencing the independent audit of Ex-Im Bank’s ﬁscal 2008 ﬁnancial statements.

   Continued work with management on a detailed evaluation of Ex-Im Bank’s economic impact
   procedures to identify opportunities to improve their eﬃciency, eﬀectiveness and transparency.

I look forward to providing future reports to Congress of the expanded program of work of this new
oﬃce as our staﬃng is completed and the OIG mission is executed within Ex-Im Bank.

Sincerely,




Michael W. Tankersley
Inspector General
                                   Overview

Mission of Ex-Im Bank and the Office of Inspector General

The Export-Import Bank of the United States (Ex-Im Bank) is the official export
credit agency of the United States. Ex-Im Bank's mission is to assist in financing
the export of U.S. goods and services to international markets. Ex-Im Bank
enables U.S. companies — large and small — to turn export opportunities into
sales that help to maintain and create U.S. jobs and contribute to a stronger
national economy.

The Office of lnspector General (OIG) at Ex-Im Bank is an independent office
within Ex-Im Bank that seeks to support Ex-Im Bank's overall mission and goals
while helping to protect it from fraud, waste and abuse. The Inspector General
Act of 1978 (IG Act) states that the Inspector General is responsible for
conducting audits, inspections and investigations and recommending policies
and procedures that promote economic, efficient and effective use of Ex-Im Bank
resources and programs that prevent fraud, waste, abuse and mismanagement.
The IG Act also requires the Inspector General to keep the Chairman of Ex-Im
Bank and Congress fully and currently informed about problems and deficiencies
relating to the administration of Ex-Im Bank programs and operations and the
necessity for corrective action.

This semiannual report describes the principal actions undertaken by the OIG
during the reporting period of April 1, 2008 to September 30, 2008.


Expansion of Ex-Im Bank OIG Staff and Operations

Ex-Im Bank’s OIG began its existence on August 6, 2007 with the swearing in of
Ex-Im Bank’s first Inspector General. During the reporting period, the OIG’s
activities undertaken to support the commencement of the full range of
operations required by the IG Act included:

     (i) Continuing work with Ex-Im Bank staff as well as other government
     agencies to identify the particular program, operational and financial
     opportunities, challenges and risks facing Ex-Im Bank;

     (ii) Reaching out to members of the inspector general community for advice
     and support relative to organizing the Ex-Im Bank OIG;

     (iii) Developing a financial plan for the OIG to be reflected in its budget
     request for the 2010 fiscal year based on spending requirements to support
     the audit, evaluation and investigative work required by Ex-Im Bank and the
     IG Act;
     (iv) Meeting with Ex-Im Bank’s staff in small departmental gatherings to
     explain the responsibilities and objectives of the OIG and how Ex-Im Bank
     staff can assist and benefit from the operations of the OIG;

     (v) Hiring senior staff to serve as Counsel to the Inspector General,
     Assistant inspector General for Audits and Assistant Inspector General for
     Investigations and commencing searches for subordinate positions; and

     (vi) Developing strategic plans, policies and procedures to support the
     operations of the OIG.

                            Summary of Activity
As required by the IG Act, presented below is an activity summary of the audits,
evaluations, requests from Congress, hotline complaints and fraud investigation
referrals conducted by our office for this reporting period.

Audits and Evaluations

Audit Staff. During the reporting period, the Ex-Im Bank OIG hired its first
Assistant Inspector General for Audit, who is responsible for audits, reviews and
evaluations of Ex-Im Bank programs and operations. She joined the Ex-Im Bank
OIG from the U.S. International Trade Commission OIG, where for the past
seven years she served as the Assistant Inspector General for Audit and as
Acting Inspector General from November 2005 to December 2007. Prior to
working at the ITC/OIG, she served for ten years as a senior audit manager in
the U.S. Department of the Treasury OIG. Additional audit support will be
provided by a senior auditor hired in September 2008 who brings sixteen years of
experience working with the Department of Veterans Affairs’ OIG and VA Office
of the Chief Financial Officer.

Relationship Between the OIG and Audit Committee. Ex-Im Bank’s Bylaws
provide for an Audit Committee consisting of members of the Board of Directors
other than the Chairman and Vice-Chairman. The Bylaws state that:

      The Audit Committee, reporting to the Board of Directors, shall be
      responsible for providing assistance to the Board in fulfilling its accounting
      and reporting responsibilities, determining that Ex-Im Bank has adequate
      administrative and financial controls, reviewing the financial statements
      prepared by management for distribution to Congress and the public, and
      providing direction over the internal audit function and the independent
      accountants.

The OIG and the Audit Committee addressed several matters of common interest
during this reporting period in a mutually supportive manner intended to be
consistent with the independence of the OIG and the working relationship


                                         2

principles for agencies and OIGs developed by the President’s Council on
Integrity and Efficiency. These projects included assistance in the technical
review of the contractor selected by the Audit Committee to provide internal audit
services to Ex-Im Bank and providing comment and technical review for that
contractor’s initial assessment of risks affecting Ex-Im Bank that will be relevant
to their work.

Assessment of Ex-Im Bank Audit Universe. The OIG continued work, in
consultation with Ex-Im Bank management and the Audit Committee, to identify
and prioritize audit and evaluation subjects relative to Ex-Im Bank’s operations
and financial reporting that would assist Ex-Im Bank by: (i) reducing risks and
increasing integrity in Ex-Im Bank’s export credit programs and operations; (ii)
improving efficiency and effectiveness in the delivery of Ex-Im Bank export credit
programs; (iii) enhancing Ex-Im Bank’s internal controls; and (iv) improving
transparency and accountability in Ex-Im Bank decision-making.

Reports Issued During this Period

Annual Information Security Audit. An Independent Public Accountant (IPA),
working under our supervision, conducted an audit of Ex-Im Bank’s compliance
with Title III of the E-Government Act (Public Law 107-347) of 2002 (the Federal
Information Security Management Act (FISMA)) during the reporting period. The
audit included assessing the Bank’s progress in developing, documenting and
implementing a Bank-wide program to provide security for the information and
information systems that support operations and assets of Ex-Im Bank, including
those provided or managed by third parties. The audit also included reviewing
Ex-Im Bank’s privacy program and its privacy impact assessment process.

The audit determined that Ex-Im Bank’s systems inventory was accurate and
complete, the plan of action and milestones process was adequate and the
certification & accreditation process was satisfactory. Additionally, Ex-Im Bank
maintained an excellent privacy impact assessment process. Opportunities for
improvement were noted with respect to the certification & accreditation process,
security controls testing, the comprehensive privacy program and security
awareness training.

We provided the results of this audit to Ex-Im Bank officials and the Office of
Management and Budget (OMB) during this reporting period as prescribed in
OMB Memorandum M-08-21, FY 2008 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management. We will
issue an audit report containing detailed audit results during the next reporting
period.




                                         3

On-Going Audits

We commenced work on the following audits during this reporting period:

Annual Financial Statement Audit. An IPA, working under our supervision, is
performing an audit of Ex-Im Bank’s fiscal year 2008 financial statements. Audit
work commenced in July 2008. The Ex-Im Bank OIG anticipates providing
assurance with respect to the audit of the fiscal year 2008 financial statements
based on the work of its audit staff. Assurance was not provided with respect to
the audit of the Bank’s fiscal year 2007 financial statements due to the limited
time and available OIG staff to perform the required oversight duties according
to generally accepted government auditing standards.

Medium Term Export Credit Programs. The OIG initiated a performance audit of
the Bank’s Medium Term Export Credit (MT) programs in May 2008 at the
request of the Bank’s Chairman utilizing the services of a contractor. The MT
programs have accounted for a disproportionate share of Ex-Im Bank’s credit
losses in recent years. Indictments and plea agreements in several high-profile
fraud cases emanating from the MT programs have been announced in the past
12 months. For example, of $965 million of MT transactions authorized in 2004
that were funded, approximately $256 million of claims for defaulted loans have
been paid by the Bank (reduced by recoveries of approximately $14 million).
Approximately $100 million of these claims were associated with the publicly
disclosed fraud schemes. Management has taken action to reduce these losses;
claims rates and reported instances of fraud in subsequent years have declined
from this high level but have remained above historic norms.

The audit’s principal objectives are:

   •	 Credit and Fraud Risk Management – evaluate the effectiveness of
      processes in place to manage credit risk and losses and identify and
      respond to fraud risk;

   •	 Business Process Improvement – review the design and operating
      effectiveness of the MT programs’ transaction processes with primary
      focus on business process effectiveness, identification of control
      deficiencies and a secondary emphasis on process efficiency; and

   •	 IT Systems, Support and Governance – assess the adequacy of IT
      systems and support to provide timely, accurate and useful information,
      with primary focus on Ex-Im Online and other related systems used
      throughout the MT programs’ transaction lifecycle. Also, review the state
      of IT governance as it relates to Ex-Im Bank’s processes for creating,
      modifying and executing plans for the development and improvement of IT
      system support for the MT programs.



                                        4

The OIG issued a working draft report to management for discussion during this
reporting period. We will issue an audit report containing our detailed audit
findings and recommendations and management’s response in the next reporting
period.

On-Going Evaluation

Further Review of Economic Impact Procedures. The Ex-Im Bank OIG continued
work on its review of the Bank’s economic impact procedures and the
recommendations made in a report prepared by the U.S. Government
Accountability Office (GAO), Export-Import Bank – Improvements Needed in
Assessment of Economic Impact (GAO-07-1071). This review is intended to
provide management with focused recommendations for improvements to Ex-Im
Bank’s economic impact review policies and procedures and is expected to be
completed during the next reporting period.

Government Accountability Office (GAO)

The IG Act states that each IG shall give particular regard to the activities of the
Comptroller General of the United States with a view toward avoiding duplication
and ensuring effective coordination and cooperation. The GAO issued two
reports related to Ex-Im Bank activities during the reporting period. Only one of
the reports contained recommendations for Ex-Im Bank. The reports are:

   •	 Export-Import Bank: Performance Standards for Small Business
      Assistance Are in Place but Ex-Im Is in the Early Stages of Measuring
      Their Effectiveness (GAO-08-915, July 17, 2008).

       GAO recommended that Ex-Im Bank establish performance standards for
       functions not currently addressed, revise several current measures to
       include measurable targets and time frames and take steps to establish a
       measure for financing for small businesses owned by socially and
       economically disadvantaged individuals and women. Management
       concurred with GAO’s recommendations.

   •	 Export Promotion: The Export-Import Bank’s Financing of Dual-Use
      Exports (GAO-08-1182R, September 30, 2008). GAO reported to
      Congress that Ex-Im Bank did not finance any dual-use (military and
      civilian) export projects in fiscal year 2006. Ex-Im Bank has authority to
      provide loans, guarantees and insurance to help finance exports of dual-
      use defense articles and services, subject to limitations set forth in the
      Bank’s Charter.




                                         5

                        INVESTIGATIONS AND HOTLINE ACTIVITY

Investigations Staff. The Ex-Im Bank OIG hired its first Assistant Inspector
General for Investigations during the reporting period. He joins the Ex-Im Bank
OIG from the Environmental Protection Agency OIG, where he organized its
Financial Fraud Unit and served as its director for the past six years. He has
served in federal law enforcement for more than 20 years. Actions taken during
the reporting period to build the OIG’s investigative infrastructure include:

         Addressing new investigative matters, organizing pending investigations
         and case files, creating a framework for documenting and reporting the
         disposition of investigative efforts and establishing an Ex-Im Bank OIG
         case management system.

         Working with the Ex-Im Bank Human Resources Office to write new
         position descriptions and announcements to hire additional investigators.

         Meeting with law enforcement colleagues and other staff within the IG
         community to access law enforcement resources required by the Office of
         Investigations to perform its mission.

         Working with the U.S. Department of Justice (DOJ) and other investigative
         agencies to pursue domestic and foreign investigative leads relative to
         pending and new cases referred for investigation.



Investigations. The Ex-Im Bank OIG commenced investigative efforts on 9
discreet fraud cases during the reporting period, representing 73 individual
claims paid by Ex-Im Bank. The losses associated with these claims are
approximately $112,408,900. All matters remained pending as of the end of the
reporting period.

    Summary of Investigative Activity During                       Total         No. of         $ Amount
    Period                                                         Cases         Claims*        Of Claims*
    Cases open as of April 1, 2008                                   6             23           $17,637,500
    Cases opened during period                                       9             73          $112,408,900
    Cases closed during period                                       0
    Total Pending as of September 30, 2008                          15              96         $130,046,400

*
  The number and amount of claims subject to investigation. The referral of a claim to the OIG for
investigation does not establish the existence of fraud, and not all claims included in a case under
investigation are necessarily fraudulent until proven to be so by evidence developed in the investigation.
The number and amount of claims may vary during the course of an investigation as facts and findings
develop. Accordingly, the number and amount of claims reported will vary between reporting periods.




                                                      6
Significant Prosecutions During Period

$80 Million Scheme to Defraud Ex-Im Bank. The Ex-Im Bank OIG provided
support to DOJ, the U.S. Postal Inspections Service and the FBI in a pending
investigation of several subjects related to an $80 million scheme to defraud Ex-
Im Bank. To date, eight individuals - Carlos Serrano, Daniel Curran, David
Villongco, Edward Chua, Christina Song, Robert Delgado, Edward Javier and
Jaime Galvez - have been convicted for their involvement in the fraud scheme.
Pursuant to those convictions, Delgado was sentenced on October 5, 2007, to 24
months in prison, Galvez was sentenced on January 7, 2008, to 12 months in
prison and Villongco was sentenced on February 29, 2008, to 33 months in
prison.

During this reporting period:

On April 23, 2008, Daniel Curran, a former owner of Dankim Trading Corp.,
Boynton Beach, Florida, was sentenced in the U.S. District Court for the District
of Columbia to 41 months in prison, 3 years supervised release, forfeiture of
$140,000 he received from the fraud and restitution of $23,156,828 to Ex-Im
Bank. Curran pled guilty after admitting that from October 2000 to June 2005,
he acted as a purported "exporter" in approximately $30 million of fraudulent
transactions, falsified documents sent to U.S. banks and to Ex-Im Bank and
misappropriated approximately $24 million in loan proceeds. Curran admitted
keeping approximately $400,000 of those proceeds and transferring
approximately $23 million to bank accounts owned and controlled by a co-
conspirator in the Philippines.

On April 30, 2008, Edward Javier, of Cerritos, California, pled guilty to one count
of conspiracy to defraud the United States and one count of mail fraud. In the
plea, Javier admitted that between February 2003 and July 2003, he acted as an
"exporter" in a $1 million transaction by falsifying documents sent to U.S. banks
and to Ex-Im Bank and misappropriated approximately $870,000. He transferred
approximately $550,000 of those proceeds to bank accounts owned and
controlled by a co-conspirator in the Philippines and $300,000 to a company in
the United Kingdom. On July 18, 2008, Javier was sentenced in the U.S. District
Court for the District of Columbia to six months in jail, six months home detention
and 36 months of supervised release following his release from prison. He was
also ordered to pay restitution of $684,934 to Ex-Im Bank.

On May 14, 2008, Edward Chua was sentenced in the U.S. District Court for the
District of Columbia to 37 months in prison, 3 years probation and was ordered to
pay more than $10.7 million in restitution to Ex-Im Bank. Chua pled guilty in July
2007 to conspiracy to defraud the United States and mail fraud, admitting to
acting as a purported exporter in approximately $10 million in fraudulent loan
transactions, falsifying documents sent to U.S. banks and Ex-Im Bank and
misappropriating approximately $10 million in loan proceeds. Chua also



                                         7

admitted keeping approximately $300,000 of the proceeds and transferring
approximately $9 million to bank accounts owned or controlled by a co-
conspirator in the Philippines.

On September 18, 2008, a federal jury in Los Angeles, California, convicted
Carlos Serrano, of Glendale, California, the owner of Serv-Ease Office Systems
Inc., for his role in a $1.3 million scheme to defraud First International Bank of
Connecticut and Ex-Im Bank. Serrano was found guilty on both counts charged
in the indictment: conspiracy to commit bank fraud and bank fraud. Sentencing is
scheduled for Jan. 26, 2009.

Investigation of this and related cases and the pursuit of criminal penalties by
DOJ and civil recoveries by Ex-Im Bank is continuing. As the Ex-Im Bank OIG
Office of Investigations continues to develop its capabilities, further involvement
in this matter is expected.

(The investigation was conducted by the U.S. Postal Inspection Service and the
FBI and was prosecuted by trial attorneys of the DOJ Criminal Division's Fraud
Section and the U.S. Attorney’s Office for the Central District of California).
Exporter Pleads Guilty to Stealing Millions from Ex-Im Bank. The Ex-Im Bank
OIG provided support to DOJ, IRS Criminal Investigations Division, Immigrations
and Customs Enforcement (ICE) and the FBI in connection with an investigation
of Andrew M. Parker, owner of San Antonio Trade Group, San Antonio, Texas,
for conspiracy, wire fraud, money laundering, tax evasion and filing false tax
returns.
On May 1, 2008, the United States Attorney for the Western District of Texas
announced the arrest of Parker on conspiracy, wire fraud, money laundering,
false statements and tax charges, resulting in losses to Ex-Im Bank exceeding
$100 million. Parker was earlier indicted by a federal grand jury which charged
that from February 2003 to November 2006, Parker schemed to defraud Ex-Im
Bank by stealing millions of dollars in loan proceeds obtained by Mexican
business owners from private U.S. lenders and causing multi-million dollar losses
to Ex-Im Bank, which guaranteed or insured those loans based on false
applications and supporting documentation submitted by Parker. The indictment
also charged Parker with defrauding lenders in transactions not insured or
guaranteed by Ex-Im Bank. On August 21, 2008, Parker pled guilty to eleven
counts of the indictment including conspiracy, wire fraud, money laundering, tax
evasion and filing false tax returns.
Investigation of this and related cases and the pursuit of criminal penalties by
DOJ and civil recoveries by Ex-Im Bank is continuing. As the Ex-Im Bank OIG
Office of Investigations continues to develop its capabilities, further involvement
in this matter is expected.
(This investigation was conducted by the FBI, the IRS Criminal Investigations
Division and ICE and prosecuted by the U.S. Attorney’s Office for the Western
District of Texas.)


                                         8

SUMMARY OF INVESTIGATIVE RESULTS* 


Semiannual Period                                               Ex-Im        Joint                         Totals
(April 1, 2008 – September 30, 2008)                           OIG Only Investigations**
Results of Prosecutive Actions
Criminal                                                             0                     0                   0
Indictments/Informations/Complaints
Convictions/Settlements/Judgments                                 0            0                             0
Prison Time (including time suspended)                            0             0                            0
Probation                                                         0             0                            0
Community Service                                                 0             0                            0
Fines and Recoveries (including Civil)                            0             0                            0
Results of Administrative Actions                               Ex-Im        Joint                         Totals
                                                               OIG Only Investigations**
Suspensions                                                       0            0                               0
Debarments                                                        0            0                               0
Compliance Agreements                                             0            0                               0
Other Administrative/Disciplinary Actions                         0             0                              0
Administrative Recoveries/Repayments                              0             0                              0
* The impact on Ex-Im Bank of the two significant prosecutions referenced above warrants mention in this

report, but the limited involvement of this office does not support including these actions in this table during 

this reporting period. 

** With another federal agency.


HOTLINE ACTIVITY

The following table details Ex-Im Bank OIG Hotline reports of fraud, waste and
abuse in Ex-Im Bank programs and operations during this reporting period.

Semiannual Period                                                                               Totals
(April 1, 2008 – September 30, 2008)
Hotline Complaints Open as of April 1, 2008                                                         1
Hotline Inquiries/Complaints Received in Period                                                     6
Hotline Issues Handled by Ex-Im Bank OIG
   • Issues addressed without opening a complaint                                                   2
   • Complaints opened
   • Complaints closed                                                                              1
   • Issues referred for investigation                                                              1
   • Issues referred for audit                                                                      1
                                                                                                    1
Hotline Issues Referred to Other Agencies or Offices
   • Ex-Im Bank program offices                                                                     1
   • Other federal law enforcement agencies                                                         0
   • Other federal/state/local agencies                                                             0
                                                                                                    0
Hotline Complaints Pending as of September 30, 2008                                                 1


                                                        9

                            Regulatory Review

The OIG did not undertake any reviews of proposed legislation, rules or Ex-Im
Bank policies during the reporting period.




                                       10

                   CROSS-REFERENCE TO REPORTING REQUIREMENTS
                          OF THE INSPECTOR GENERAL ACT

Set forth below are cross-references of the reporting requirements prescribed by the identified
sections of the IG Act to the specific pages in this Semiannual Report where they are
addressed.


CITATION            REPORTING REQUIREMENTS                                          PAGE
Section 4(a)(2)     Review of legislation and regulations                           None

Section 5(a)(1)     Significant problems, abuses and deficiencies                   None

Section 5(a)(2)     Recommendations with respect to significant problems,           None
                    abuses and deficiencies

Section 5(a)(3)     Prior significant recommendations on which corrective           None
                    action has not been completed

Section 5(a)(4)     Matters referred to prosecutorial authorities                   None

Section 5(a)(5)     Summary of instances in which information was refused           None

Section 5(a)(6)     List of audit reports by subject matter, showing dollar value    4
                    of questioned costs and recommendations that funds be
                    put to better use

Section 5(a)(7)     Summary of each particularly significant report                  4

Section 5(a)(8)     Statistical table showing number of reports and dollar value    13
                    of questioned costs

Section 5(a)(9)     Statistical table showing number of reports and dollar value    14
                    of recommendations that funds be put to better use

Section 5(a)(10)    Summary of each audit issued before this reporting period       None
                    for which no management decision was made by end of
                    reporting period

Section 5(a)(11)    Significant revised management decisions                        None

Section 5(a)(12)    Significant management decisions with which the Inspector       None
                    General disagrees




                                              11

     Table 1: AUDIT REPORTS WITH QUESTIONED COSTS 


                                                                     Dollar Value

                                                       Number of Questioned Unsupported
                                                        Reports    Costs       Costs

A.     For which no management decision has been made
       by the commencement of the period                     0       0              0

B.     Which were issued during the reporting period         0       0              0

       Subtotals (A + B)                                     0       0              0

C.     For which a management decision was made during
       the reporting period

       (i) Dollar value of disallowed costs                  0       0              0

       (ii) Dollar value of costs not disallowed             0       0              0

D.     For which no management decision has been made
       by the end of the reporting period                    0       0              0

E.     Reports for which no management decision was
       made within six months of issuance                    0       0              0




                                              12

 Table 2: AUDIT REPORTS WITH RECOMMENDATIONS 

          THAT FUNDS BE PUT TO BETTER USE 

                                                         Number of   Dollar
                                                          Reports    Value

A.     For which no management decision has been made
       by the commencement of the period                     0         0

B.     Which were issued during the reporting period         0         0

       Subtotals (A + B)                                     0         0

C. 	   For which a management decision was made during
       the reporting period

       (i) Dollar value of recommendations that were
           agreed to by management                           0         0

       (ii) Dollar value of recommendations that were
        not agreed to by management                          0         0

D. 	   For which no management decision has been made
       by the end of the reporting period                    0         0

E. 	   Reports for which no management decision was
       made within six months of issuance                    0         0




                                           13

                                    GLOSSARY

The following definitions apply to the terms used in this report.

Questioned cost            means a cost that is questioned because of: (1) an alleged
                           violation of a provision of a law, regulation, contract, grant,
                           cooperative agreement, or other agreement or document
                           governing the expenditure of funds; (2) a finding that, at the
                           time of the audit, such cost is not supported by adequate
                           documentation; or (3) a finding that the expenditure of funds
                           for the intended purpose is unnecessary or unreasonable.

Unsupported cost           means a cost that is questioned because at the time of the
                           audit, such cost is not supported by adequate documentation.

Disallowed cost            means a questioned cost that management, in a management
                           decision, has sustained or agreed should not be charged to the
                           Government.

Recommendations that means a recommendation that funds could be used more
funds be put to better efficiently if management of an establishment took actions to
use                    implement and complete the recommendation, including: (1)
                       reduction in outlays; (2) deobligation of funds from programs
                       or operations; (3) withdrawal of interest subsidy costs on loans
                       or loan guarantees, insurance, or bonds; (4) costs not incurred
                       by implementing recommended improvements related to the
                       operations of the establishment, a contractor or grantee; (5)
                       avoidance of unnecessary expenditures noted in preaward
                       reviews of contract or grant agreements; or (6) any other
                       savings which are specifically identified.




                                            14

If you suspect fraud, waste, abuse, or other misconduct at the 

     Export-Import Bank of the United States, contact us.





                 OIG HOTLINE

                  1-866-571-1801




      The OIG Hotline is available 24 hours per day.
      The caller can remain anonymous. Federal employees
    are protected from reprisal under the provisions of the
  Whistleblower Protection Act of 1989. For more information,
   see the MSPB publication “Questions and Answers About
                     Whistleblower Appeals.”

    If you prefer, you may send written complaints to:

                   IGhotline@exim.gov or

         Export-Import Bank of the United States 

                Office of Inspector General

                          Room 978

                811 Vermont Avenue, N.W.

                   Washington, DC 20571

